                            Office of Inspector General
                           Corporation for National and
                                    Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
FISCAL YEAR 2007 FINANCIAL STATEMENTS

          Audit Report Number 08- 01




                       Prepared by:

               CLIFTON GUNDERSON LLP
                  11710 Beltsville Drive
                Calverton, Maryland 20705




 This report was issued to Corporation management on November 14, 2007.
 Under the laws and regulations governing audit follow up, the Corporation is to
 make final management decisions on the report’s findings and
 recommendations no later than May 14, 2008, and complete its corrective
 actions by November 14, 2008. Consequently, the reported findings do not
 necessarily represent the final resolution of the issues presented.
                              OFFICE OF INSPECTOR GENERAL
                                             November 14, 2007

TO:              David Eisner
                 Chief Executive Officer

FROM:            Gerald Walpin (original signed by)
                 Inspector General

SUBJECT:         Audit of the Corporation for National and Community Service’s Fiscal Year 2007
                 Financial Statements, Audit Report Number 08-01

We contracted with the independent certified public accounting firm of Clifton Gunderson LLP
(Clifton) to audit the financial statements of the Corporation for National and Community
Service (Corporation) as of September 30, 2007 and 2006, and for the years then ended. The
contract required that the audit be performed in accordance with generally accepted government
auditing standards.

In its audit, Clifton found

      •   The financial statements were fairly presented, in all material respects, in conformity with
          generally accepted accounting principles;

      •   The reportable condition and an issue of noncompliance with laws and regulations from
          the Fiscal Year 2006 audit were determined to be closed.

Clifton Gunderson is responsible for the attached auditor’s report, dated November 8, 2007, and
the conclusions expressed therein. The Office of Inspector General does not express an opinion
on the Corporation’s Financial Statements or Clifton’s conclusions about the effectiveness of
internal control or compliance with laws and regulations.

Attachment

cc:       Nicola Goren, Chief of Staff
          Frank Trinity, General Counsel
          Elizabeth Seale, Chief Operating Officer
          Jerry Bridges, Chief Financial Officer
          William Anderson, Deputy CFO for Financial Management
          Andrew Kleine, Deputy CFO for Planning and Program Management
          Sherry Blue, Audit Resolution Coordinator
          Bill Oliver, Engagement Partner, Clifton Gunderson LLP (without attachment)




                         1201 New York Avenue, NW Suite 830, Washington, DC 20525
                            202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                              Senior Corps    AmeriCorps   Learn and Serve America
                                 Independent Auditor’s Report


To the Inspector General
Corporation for National and Community Service


We have audited the accompanying Statement of Financial Position of the Corporation for
National and Community Service (Corporation) as of September 30, 2007, and the related
statements of Operations and Changes in Net Position, Budgetary Resources and Cash Flows for
the year then ended. These financial statements are the responsibility of Corporation
management. Our responsibility is to express an opinion on these financial statements based on
our audit. The financial statements of the Corporation as of September 30, 2006, were audited
by other auditors whose report, dated November 13, 2006, expressed an unqualified opinion on
those financial statements.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the schedules are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
schedule. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall schedule presentation. We
believe that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the Corporation as of September 30, 2007, and the results of its
operations and changes in net position, budgetary resources, and cash flows for the year then
ended in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 8, 2007, on our consideration of Corporation’s internal control over financial
reporting and on our tests of its compliance with certain provisions of laws and




11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050                                   1
fax: 301-931-1710
www.cliftoncpa.com                 Offices in 17 states and Washington, DC
regulations and other matters. The purpose of those reports is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, not to
provide an opinion on internal control over financial reporting or compliance. Those reports are
an integral part of our audit performed in accordance with Government Auditing Standards and
should be considered in assessing the results of our audit.


a                                              1
Calverton, Maryland
November 8, 2007




                                                2
                       Corporation for National and Community Service
                        Consolidated Statements of Financial Position
                                     As of September 30
                                            (dollars in thousands)


ASSETS                                                                   2007              2006
Fund Balance with Treasury (Note 2)                                  $    886,505     $     927,827
Trust Investments and Related Receivables (Note 3)                        465,391           448,329
Advances to Others                                                         61,975            60,047
Accounts Receivable, Net (Note 4)                                           3,247             2,055
Property and Equipment, Net (Note 5)                                        2,107             3,158
   Total Assets                                                      $   1,419,225    $    1,441,416



LIABILITIES
Trust Service Award Liability (Note 6)                               $    280,597     $     266,943
Grants Payable                                                             99,805            88,639
Accounts Payable                                                            6,141             5,912
Actuarial FECA Liability (Note 8)                                          11,888            12,537
Other Liabilities                                                          13,331            11,223
Accrued Annual Leave                                                        3,165             3,736
Advances from Others                                                            102               162
Capital Lease Liability (Note 7)                                                250               327
   Total Liabilities                                                      415,279           389,479


Contingencies (Note 14)


NET POSITION
Unexpended Appropriations                                                 828,597           872,133
Cumulative Results of Operations                                          175,349           179,804
   Total Net Position (Note 9)                                           1,003,946         1,051,937


Total Liabilities and Net Position                                   $   1,419,225    $    1,441,416




              The accompanying notes are an integral part of these financial statements.
                   Corporation for National and Community Service
           Consolidated Statements of Operations and Changes in Net Position
                           For the Years Ended September 30
                                            (dollars in thousands)


REVENUE                                                                  2007              2006
Appropriated Capital Used                                            $    779,456     $     731,807
Appropriations Transferred to the Trust Fund (Note 10)                    117,720           154,868
Interest                                                                   19,563            15,427
Revenue from Services Provided                                              7,404             9,064
Other                                                                       2,452                 185
   Total Revenue                                                          926,595           911,351



EXPENSES
AmeriCorps                                                                622,304           553,851
SeniorCorps                                                               240,828           235,955
Learn and Serve America                                                    59,503            51,799
   Subtotal - Program Expenses                                            922,635           841,605
Pass-through Grants                                                         2,781             9,504
Office of the Inspector General                                             5,634             7,778
   Total Expenses (Note 11)                                               931,050           858,887


Net of Revenue Over Expenses                                         $      (4,455)   $      52,464


NET POSITION
Net of Revenue over Expenses                                         $      (4,455)   $      52,464
Increase/(Decrease) in Unexpended Appropriations, Net (Note 13)            (43,536)           7,733
Increase/(Decrease) in Net Position, Net                                   (47,991)          60,197
Net Position, Beginning Balance                                          1,051,937          991,740
   Net Position, Ending Balance (Note 9)                             $   1,003,946    $    1,051,937




              The accompanying notes are an integral part of these financial statements.
                         Corporation for National and Community Service
                             Consolidated Statements of Cash Flows
                               For the Years Ended September 30
                                                (dollars in thousands)


CASH FLOWS FROM OPERATING ACTIVITIES                                         2007              2006
Net of Revenue over Expenses                                             $       (4,455)   $     52,464

Adjustments Affecting Cash Flow:
   Appropriated Capital Used                                                  (779,456)        (731,807)
   Appropriations Received in Trust                                           (117,720)        (154,868)
   Decrease/(Increase) in Accounts Receivable                                    (1,192)          1,132
   Decrease/(Increase) in Interest Receivable                                    1,179                (56)
   Decrease/(Increase) in Advances                                               (1,928)          3,542
   Increase/(Decrease) in Accounts Payable and Other Liabilities                 2,277                 59
   Increase/(Decrease) in FECA and Annual Leave Liabilities                      (1,220)              563
   Increase/(Decrease) in Capital Lease Liability                                   (77)              (75)
   Increase/(Decrease) in Trust Liability                                       13,654            6,882
   Increase/(Decrease) in Grants Payable                                        11,166           (2,809)
   Amortization of Premium/Discount on Investments                             (48,374)           2,839
   Depreciation, Amortization, and Loss on Disposition of Assets                 1,051                897
      Total Adjustments                                                       (920,640)        (873,701)
Net Cash Provided/(Used) by Operating Activities                              (925,095)        (821,237)


CASH FLOWS FROM INVESTING ACTIVITIES
Purchase of Property and Equipment                                                    -          (3,075)
Sales of Securities                                                          5,731,950          363,305
Purchase of Securities                                                       (5,701,817)       (409,670)
Net Cash Provided/(Used) in Investing Activities                                30,133          (49,440)


CASH FLOWS FROM FINANCING ACTIVITIES
Appropriations Received, Net of Trust                                          884,547          919,049
Canceled/Rescinded Appropriations                                              (30,907)         (24,641)
Net Cash Provided by Financing Activities                                      853,640          894,408


Net Increase/(Decrease) in Fund Balance with Treasury                          (41,322)          23,731


Fund Balance with Treasury, Beginning                                          927,827          904,096


Fund Balance with Treasury, Ending                                       $     886,505     $    927,827


              The accompanying notes are an integral part of these financial statements.
                       Corporation for National and Community Service
                        Combined Statements of Budgetary Resources
                             For the Years Ended September 30
                                              (dollars in thousands)



BUDGETARY RESOURCES                                                        2007               2006
Unobligated balance, brought forward, October 1                        $    185,878     $       215,828
Recoveries of prior year unpaid obligations                                  57,330              39,507
Budget authority:
  Appropriation                                                            1,021,546          1,092,466
  Spending authority from offsetting collections:
      Collected                                                                7,302             10,581
      Change in receivables from Federal sources                                   -             (1,968)
  Change in unfilled customer orders:
      Advance received                                                             -                 94
      Without advance from Federal sources                                         -              2,634
   Total budget authority                                                  1,028,848          1,103,807
Permanently not available                                                    (30,907)           (24,642)
    Total budgetary resources                                          $   1,241,149    $     1,334,500



STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 16)                                             1,063,829          1,148,622
Unobligated balance:
  Apportioned                                                                      -              5,285
 Other available                                                                  -              73,607
Unobligated balance not available                                           177,320             106,986
    Total status of budgetary resources                                $   1,241,149    $     1,334,500


                                                                                            (Continued)




             The accompanying notes are an integral part of these financial statements.
                          Corporation for National and Community Service
                           Combined Statements of Budgetary Resources
                                For the Years Ended September 30
                                            (dollars in thousands)


(Continued)
                                                                          2007               2006
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
  Unpaid obligations, brought forward, October 1                     $   1,185,078      $    1,083,950
  Uncollected customer payments from Federal sources,
   brought forward, October 1                                                (3,455)             (2,789)
      Total unpaid obligated balance, net                                1,181,623           1,081,161
Obligations incurred, net                                                1,063,829           1,148,622
Gross outlays                                                            (1,025,858)         (1,007,987)
Recoveries of prior year unpaid obligations, actual                        (57,330)            (39,507)
Change in uncollected customer payments from Federal sources                 1,760                (666)
      Total unpaid obligated balance, net, end of period                 1,164,024           1,181,623
Obligated balance, net, end of period:
  Unpaid obligations                                                     1,165,718           1,185,078
  Uncollected customer payments from Federal sources                        (1,694)             (3,455)
      Total unpaid obligated balance, net, end of period                 1,164,024           1,181,623


NET OUTLAYS                                                                              RESTATED
Gross outlays                                                            1,025,858           1,007,987
Offsetting collections                                                      (9,062)            (10,675)
Distributed offsetting receipts (Note 17)                                 (119,014)           (155,064)
      Net outlays                                                    $     897,782      $      842,248




                The accompanying notes are an integral part of these financial statements.
N OTES TO THE FIN AN CIAL STATEMEN TS
NO TE 1 – SUMMARY O F SIGNIFICANT ACCO UNTING PO LICIES
A. Reporting Entity
The Corp oration for N ation al an d Com m unity Service (Corp oration ) w as created by the
N ation al and Com m u nity Service Tru st Act of 1993 (Pu blic Law 103-82). The Corp oration ’s
m ission is to im p rove lives, stren gth en com m u nities, and foster civic engagem ent throu gh
service and volu nteerin g. To m eet its m ission, th e Corp oration p rovid es grants and other
assistance to States, local m u nicip alities, and not-for-p rofit organization s to help
com m u nities m eet critical challen ges in the areas of ed u cation, p u blic safety, h u m an n eed s,
and th e environ m en t th rou gh volu nteer service. Th e Corp oration’s m ajor p rogram s are:
SENIO R CO RPS. The Sen ior Corp s offers a netw ork of p rogram s that tap the rich
exp erien ce, skills and talen ts of old er citizen s to m eet com m u nity challenges. Sen ior Corp s
com p rises the Retired and Senior Volu nteer Program , th e Foster Grand p arent Program ,
and th e Senior Com p anion Program s.
AMERICO RPS. Am eriCorp s p rovid es op p ortu n ities for Am ericans to m ake an on goin g,
in tensive com m itm ent to service th rou gh the follow ing p rogram s:
    o State, N ational, Tribes, and Territories, (State/N ation al) offers grants su p p orting a
         broad ran ge of local service p rogram s th at en gage thou san d s of Am ericans in
         intensive service to m eet critical com m u n ity need s.
    o V olunteers in Service to A merica (VISTA) help s com m u nity organ izations and p u blic
         agencies create and exp and p rogram s th at bu ild cap acity and u ltim ately brin g low -
         incom e in d ivid u als and com m u n ities ou t of p overty.
    o N ational Civilian Community Corps (N CCC) stren gth en s com m u n ities w hile
         d evelop ing lead ers throu gh d irect, team -based n ational an d com m u nity service.
LEARN AND SERVE AMERICA. Learn and Serve Am erica su p p orts p rogram s in schools,
colleges, an d com m u n ity-based organ izations th at lin k com m u nity service to ed u cational
objectives.
In ad d ition, the Corp oration ad m inisters the N ation al Service Tru st (the Tru st), w h ose
p u rp ose is to p rovid e ed u cation aw ard s for volu nteers u n d er Am eriCorp s’ State, N ational,
Tribes an d Territories; N CCC; an d VISTA p rogram s.

B. Basis of Accounting and Presentation
The accom p anying finan cial statem en ts rep ort th e fin ancial p osition, resu lts of op erations,
cash flow s, and bu d getary resou rces of the Corp oration , as requ ired by the Govern m en t
Corp oration Con trol Act (31 USC 9106) and Execu tive Ord er 13331 (“N ational Com m u nity
Service Program s”).
The accom p anying Consolid ated Statem en ts of Finan cial Position, Op erations and Changes
in N et Position, an d Cash Flow s have been p rep ared from th e books an d record s of the
Corp oration in accord ance w ith accou nting p rincip les generally accep ted in th e United
States of Am erica (GAAP) as ap p licable to Fed eral govern m en tal corp orations an d in clu d e
th e Corp oration’s activities related to p rovid ing grants an d other assistan ce to eligible
states, local governm en ts, and not-for-p rofit organization s as w ell as ed u cation aw ard s to
eligible n ation al service p articip ants.
The accom p an ying Com bined Statem ents of Bu d getary Resou rces (SBR) have been
p rep ared from th e books an d record s of the Corp oration in accord ance w ith the form an d
con tent requ irem en ts p ertainin g to it in th e Office of Man agem ent and Bu d get (OMB)
Circu lar N o. A-136, “Finan cial Rep orting Requ irem en ts” and GAAP. GAAP, as it relates to
th e SBR, is p rescribed by the Fed eral Accou n tin g Stand ard s Ad visory Board , w h ich is th e
official accou nting stand ard -setting bod y for the Fed eral govern m en t.
The Corp oration’s accou nting stru ctu re reflects both accru al and bu d getary accou n tin g
tran sactions. Un d er th e accru al m ethod of accou n ting, revenu es are recognized w hen
earned and exp en ses are recognized w h en in cu rred , withou t regard to the actu al collection
or p aym en t of cash. Fed eral bu d getary accou nting recognizes th e obligation of
ap p rop riations an d other fu nd s u p on the establish m ent of a p rop erly d ocu m ented legal
liability, w h ich, in m any cases, is d ifferent from the record in g of an accru al-based
tran saction. The recogn ition of bu d getary accou n ting transactions is essen tial for
com p liance w ith legal con trols over th e u se of Fed eral fu n d s.

C. Budgets and Budgetary Accounting
The activities of th e Corp oration are p rim arily fu n d ed throu gh the annu al Dep artm en ts of
Labor, H ealth an d H u m an Services, Ed u cation and Related Agen cies Ap p rop riation Act.
The Corp oration is m an aged throu gh the follow ing tru st an d ap p rop riated fu n d s:

Trust Funds
    o    N ation al Service Tru st
    o    Gifts and Contribu tions

Appropriated Funds
    o    Dom estic Volu nteer Service Program s, Op eratin g Exp en ses, a on e-year fund
    o    N ation al and Com m u nity Service Program s, Op erating Exp enses, a tw o-year fu n d
    o    Salaries an d Exp en ses, a one-year fu nd
    o    Office of Insp ector General, a tw o-year fu n d
    o    VISTA Ad van ce Paym ent Revolving Fu n d , a n o-year fu n d .
The Vista Ad van ce Paym ent Revolving Fu n d w as establish ed on Febru ary 15, 2007, by
Pu blic Law 110-5. It p rovid es bu d getary resou rces again st w hich th e Corp oration ad van ces
fu nd s for VISTA cost-sh are agreem en ts. OMB d id not establish th e VISTA Ad vance
Paym ent Revolvin g Fu nd as a revolving fu n d , bu t, as n oted above, as a p erm anent,
in d efinite ap p rop riated fu nd .

D . Fund Balance w ith Treasury
Fu nd Balance w ith Treasu ry (FBWT) rep resen ts th e Corp oration’s cash accou nts w ith the
Dep artm en t of th e Treasu ry (the Treasu ry). Th e Treasu ry p rocesses cash receip ts and
d isbu rsem en ts on behalf of the Corp oration and the Corp oration ’s accou n tin g record s are
reconciled w ith those of the Treasu ry on a regu lar basis. The Corp oration’s FBWT in clu d es
all of its ap p rop riated and tru st fu n d s.
Fu nd s m ain tain ed in th e National Service Tru st are restricted to sp ecific p u rp oses, su ch as
p aying service aw ard s earned by eligible p articip ants, an d are n ot available for u se in th e
cu rrent op erations of the Corp oration . Th e m ajority of the fu n d s received from ind ivid u als
an d organ izations in the form of gifts are restricted for p articu lar u ses, su ch as service
p rojects.
E.   Investments and Related Receivables
By law , the Corp oration m ay invest the fu nd s of the N ation al Service Tru st in in terest-
bearin g Treasu ry secu rities gu aranteed by the Un ited States as to p rincip al and in terest.
These Treasu ry secu rities are referred to as “m arket-based ”, since they m irror actu al
Treasu ry secu rities sold on the op en m arket. They consist of Treasu ry notes, bond s, bills
an d on e-d ay certificates.
Sin ce they are exp ected to be h eld -to-m atu rity, the Corp oration’s investm en ts are valu ed at
cost an d ad ju sted for th e am ortization of p rem iu m s an d d iscou n ts. Th e p rem iu m s an d
d iscou nts are recognized as ad ju stm ents to interest in com e, u sing the effective interest
m ethod . Interest receivable rep resents am ou n ts earned , bu t not received on investm ents
held at year-end . Prep aid in terest is the am ou nt of in terest earn ed on a secu rity sin ce the
d ate of its last in terest p aym en t u p to the d ate th e secu rity is p u rch ased by the Corp oration .
Su ch in terest, if an y, at year-en d is inclu d ed in th e interest receivable balan ce.

F.   Advances to Others
The Corp oration ad van ces fu nd s to n on-fed eral en tities, p rim arily in resp on se to grantee
d raw d ow n requ ests, to facilitate their au thorized service activities. Th e cash p aym ents to
grantees, in excess of am ou n ts ap p rop riately exp en d ed u n d er the term s of the grant
agreem ents, are accou nted for as ad van ces. At th e en d of th e fiscal year, th e total am ou n t
ad vanced to gran tees is com p ared w ith the total Corp oration-fu nd ed am ou n t of grant
exp enses p rop erly in cu rred by the gran tees. Gran tee exp enses are d eterm in ed from rep orts
su bm itted by th e grantees. For those grantees w ith ad vances exceed in g exp en ses, the
aggregate d ifference is rep orted as the ad van ce accou nt balance.

G. Accounts Receivable
Accou nts receivable rep resents am ou nts d u e to the Corp oration p rim arily u n d er Fed eral
an d non-Fed eral reim bu rsable agreem en ts, grantee au d it resolu tion d eterm inations, an d
ou tstan d in g travel ad van ces d u e from em p loyees. An allow an ce for d ou btfu l accou nts is
establish ed for rep orting p u rp oses based on p ast exp erience.

H. Property and Equipment
Effective Ju ly 1, 2007, the Corp oration institu ted a p rosp ective in crease in the cap italization
th reshold for cap italized p rop erty and equ ip m en t from $10 thou san d to $50 th ou san d .
Thu s, all p rop erty and equ ip m ent received and accep ted by th e Corp oration on or after Ju ly
1, 2007, is su bject to the $50 thou sand cap italization th resh old . Prop erty and equ ip m en t
w ith an estim ated u sefu l life that extend s beyon d the year of acqu isition is cap italized at
historical cost and is d ep reciated (or am ortized ) on a straigh t-line basis over estim ated
u sefu l lives ran gin g from tw o to 10 years, u sing the half-year con vention . N orm al
m aintenance an d repair costs on cap italized p rop erty and equ ip m en t are exp en sed w h en
in cu rred .

I.   Trust Service Aw ard Liability
The Tru st Service Aw ard Liability rep resents u np aid earn ed , an d exp ected to be earned ,
ed u cation aw ard s an d eligible stu d ent loan in terest forbearance costs, w hich are exp ected to
be u sed . These am ou nts relate to p articip an ts w h o have com p leted service or are cu rrently
enrolled in the p rogram and are exp ected to earn an aw ard , based on th e Corp oration’s
historical exp erience.
J.   Grants Payable
Grants are m ad e to n onp rofit organ izations, ed u cational institu tion s, states, m u n icip alities,
an d other external organ izations. Grants becom e bu d getary obligations, bu t n ot liabilities,
w h en they are aw ard ed . At the en d of each fiscal year, th e Corp oration rep orts th e total
am ou nt of u nreim bu rsed gran tee exp enses, w h ich are p rop erly p ayable u n d er th e term s of
gran t agreem ents, as gran ts p ayable.

K. Accounts Payable
The Corp oration record s as liabilities all am ou n ts th at are likely to be p aid as a d irect resu lt
of a transaction or event that has alread y occu rred . Accou n ts p ayable rep resents am ou nts
d u e to entities for good s and services received by the Corp oration, bu t n ot p aid for at th e
end of th e fiscal year.

L.   Actuarial FECA Liability
The Fed eral Em p loyees’ Com p ensation Act (FECA) p rovid es in com e and m ed ical cost
p rotection to covered Fed eral civilian em p loyees, N CCC and VISTA m em bers inju red on
th e job, em p loyees w ho h ave incu rred a w ork-related occu p ation al d isease, an d
ben eficiaries of em p loyees w hose d eath is attribu table to a job-related in ju ry or
occu p ational d isease. Claim s in cu rred for benefits for Corp oration em p loyees and
m em bers u nd er FECA are d eterm ined and p aid by the Dep artm ent of Labor (DOL) an d
later billed to the Corp oration. The Corp oration ’s actu arial liability for w orkers’
com p en sation in clu d es costs incu rred bu t u nbilled as of year-end , as calcu lated by DOL.
The Corp oration reim bu rses DOL for FECA claim s ou t of cu rren t ap p rop riation s u p on
receip t of a bill from DOL.

M. Other Liabilities
Other liabilities inclu d e am ou nts ow ed bu t not p aid at th e end of the fiscal year for p ayroll
an d ben efits and VISTA stip end s. Also in clu d ed as oth er liabilities is th e am ou n t of claim s
for benefits for Corp oration em p loyees u n d er FECA th at h ave been p aid by DOL and billed
to the Corp oration bu t h ave n ot yet been reim bu rsed to DOL.

N . Accrued Annual Leave
An nu al leave is accru ed as a liability based on am ou n ts earned bu t not u sed as of the fiscal
year-en d . Each year, the balan ce in th e accru ed annu al leave accou n t is ad ju sted to reflect
cu rrent year p ay rates and leave balances. Annu al leave is fu n d ed from cu rrent
ap p rop riation s w hen u sed . As u n u sed ann u al leave is u sed in the fu tu re, financing w ill be
obtain ed from ap p rop riations cu rren t at that tim e. Sick leave and oth er typ es of non-
vested leave are also exp ensed w hen u sed .

O. Advances from Others
Ad van ces from others consist of ad van ces from other Fed eral agen cies and the p u blic
related to interagency an d cost sh are agreem en ts into w hich the Corp oration entered to
p rovid e services.

P.   N et Position
N et p osition is com p rised of the Corp oration ’s u n exp en d ed ap p rop riation s an d its
cu m u lative resu lts of op eration s. Unexp end ed ap p rop riations is th e balan ce of
ap p rop riated au th ority granted to the Corp oration against w hich no ou tlays h ave been
m ad e. Cu m u lative resu lts of op erations rep resen t the net d ifferences betw een revenu es an d
exp enses from the incep tion of the Corp oration .
Q. Revenues
Appropriat ed Capit al Used
The Corp oration recognizes its u se of ap p rop riated cap ital as reven u e at the tim e it is
exp end ed to p ay p rogram or ad m in istrative exp en ses. Ap p rop riations exp end ed for
p rop erty an d equ ip m ent are recogn ized as u sed w hen the p rop erty is p u rchased .
Ap p rop riated cap ital not exp end ed w ith in five fiscal years after it becam e available for
obligation is cancelled . Unp aid obligation s record ed against cancelled ap p rop riated cap ital
are p aid from cu rrently available ap p rop riated fu nd s as p aym ents becom e d u e.
Ap p rop riation s received for the Corp oration’s Tru st are recognized as revenu e wh en
received in the Tru st Fu nd . Tru st ap p rop riations d o not exp ire w ith th e p assage of tim e
an d are retain ed by th e Corp oration in th e Tru st u ntil u sed for eligible ed u cation service
aw ard p u rp oses.
Int erest
In terest in com e is recogn ized w h en earned . Treasu ry n otes an d bond s p ay interest sem i-
an nu ally, based on th e stated rate of interest. Interest on Treasu ry bills is p aid at m atu rity.
In terest in com e is ad ju sted by am ortization of p rem iu m s an d d iscou n ts u sin g the effective
in terest m ethod .
Rev enue from Serv ices Prov ided
The Corp oration also receives incom e from reim bu rsable service agreem en ts that is
record ed as reven u e from services p rovid ed . Reven u e from services p rovid ed is recognized
w h en earn ed , i.e., good s have been d elivered or services rend ered .
O t her Rev enue
Other revenu e consists of gifts and d onation s for the su p p ort of Corp oration op erations or
service p rojects from in d ivid u als an d organization s.

R. Retirement Benefits
The Corp oration ’s em p loyees p articip ate in either the Civil Service Retirem en t System
(CSRS) or th e Fed eral Em p loyees Retirem en t System (FERS). FERS w as established by the
enactm en t of Pu blic Law 99-335. Pu rsu an t to th is law , FERS and Social Secu rity
au tom atically cover m ost em p loyees h ired after Decem ber 31, 1983. Em p loyees h ired p rior
to Jan u ary 1, 1984, elected to join FERS an d Social Secu rity or rem ained in the CSRS.
For em p loyees covered by CSRS, the Corp oration contribu tes 7.0 p ercent of their basic p ay.
For those em p loyees covered by FERS, th e Corp oration contribu tes 11.2 p ercen t of th eir
gross p ay tow ard s retirem en t. Em p loyees are allow ed to p articip ate in the Fed eral Th rift
Savings Plan (TSP). For em p loyees u n d er FERS, th e Corp oration con tribu tes an au tom atic
on e p ercent of basic p ay to TSP an d m atch es em p loyee contribu tions u p to an ad d itional 4
p ercent of p ay, for a m axim u m Corp oration contribu tion am ou nting to 5 p ercen t of p ay.
Em p loyees u nd er CSRS m ay p articip ate in th e TSP, bu t w ill not receive eith er the
Corp oration ’s au tom atic or m atch ing contribu tions.
The Corp oration m ad e retirem ent con tribu tions of $506 an d $571 thou sand to the CSRS,
an d $8.1 and $7.1 m illion to FERS and TSP in fiscal years 2007 an d 2006, resp ectively.

S.   Income Taxes
As a Fed eral entity, th e Corp oration is exem p t from all incom e taxes im p osed by any
governin g bod y, w hether it be a Fed eral, State, com m on w ealth, local, or foreign
governm ent.
T. Use of Estimates
The preparation of financial statements in accordance with GAAP requires management to
make certain estimates. These estimates affect the reported amounts of assets and liabilities at
the date of the financial statements and the reported amounts of revenues and expenses during
the reporting period. Actual results could differ from these estimates.
U. Reclassification
                  295,086
Certain prior year amounts have been  reclassified49,165
                                  7,821            to conform to current year presentation.
                     127,984

NO TE 2 – FUND BALANCE W ITH TREASURY
U.S. Governm ent cash is accou nted for on an overall consolid ated basis by the U.S. Dep artm ent
of Treasu ry. The Fu nd Balance w ith Treasu ry line on the Statem ent of Financial Position
consists of the follow ing:
    •    Appropriated Funds – Ap prop riated fu nd s are received throu gh congressional
         ap p rop riations to p rovid e financing sou rces for the Corp oration’s p rogram s on an
         annu al, m u lti-year, and no-year basis.
    •    Trust Funds – Tru st Fu nd s are accou nts d esignated by law for receip ts earm arked for
         sp ecific p u rp oses and for the exp end itu re of these receip ts. Fu nd s from the
         Corp oration’s Tru st Fu nd m ay be exp end ed for the pu rp ose of p rovid ing an ed u cation
         aw ard or stu d ent loan interest forbearance p aym ent. Tru st Fu nd p aym ents are m ad e
         d irectly to a qu alified institu tion (college, u niversity, or other ap p roved ed u cational
         institu tion, or a lend ing institu tion hold ing an existing stu d ent loan) as d esignated by
         the p articip ant. The Tru st also p ays aw ard s u nd er the Presid ent’s Freed om
         Scholarship Program .
    •    Gift Funds – Gift Fu nd s are fu nd s received from ind ivid u als and organizations as
         d onations in fu rtherance of the p u rp oses of the national service law s.

             Fund Balance with Treasury as of September 30, 2007
                           (dollars in thousands)
  Type                          Unrestricted         Restricted           Total
Appropriated Funds             $      885,823    $                -   $    885,823
Trust Funds                                  -               148                  148
Gift Funds                                   -               534                  534
Total                          $      885,823    $           682      $    886,505


             Fund Balance with Treasury as of September 30, 2006
                           (dollars in thousands)
  Type                          Unrestricted         Restricted           Total
Appropriated Funds             $      913,492    $                -   $    913,492
Trust Funds                                  -            13,590            13,590
Gift Funds                                   -               745                  745
Total                          $      913,492    $        14,335      $    927,827
NOTE 3 – TRUST INVESTMENTS AND RELATED RECEIVABLES
The composition of Trust Investments and Related Receivables at September 30 is as follows:


                      Trust Investments and Related Receivables as of September 30
                                         (dollars in thousands)
                                                                                  2007               2006
Investments, Carrying Value                                                   $     461,842      $    443,602
Investment and Interest Receivable                                                       3,549          4,727
Total                                                                         $     465,391      $    448,329



               Amortized Cost and Fair Value of Investment Securities
                                as of September 30, 2007
                                 (dollars in thousands)
                    Amortized           Unrealized           Unrealized           Fair
  Securities          Cost                Gains               (Losses)            Value
Notes           $       427,428     $          2,307     $                -   $     429,735
Bills                    34,414                      1                    -          34,415
Bonds                           -                    -                    -                  -
Total           $       461,842     $          2,308     $                -   $     464,150



               Amortized Cost and Fair Value of Investment Securities
                                as of September 30, 2006
                                 (dollars in thousands)
                    Amortized           Unrealized           Unrealized           Fair
  Securities          Cost                Gains               (Losses)            Value
Notes           $       406,825     $                -   $         (4,520) $        402,305
Bills                    36,777                   124                     -          36,901
Bonds                           -                    -                    -                  -
Total           $       443,602     $             124    $         (4,520) $        439,206


At Sep tem ber 30, 2007, the n otes held at year-en d h ad an in terest rate range of 3.0% to 6.0% and
an ou tstand in g m atu rity p eriod of ap p roxim ately one d ay to five years. The bills held at year-
en d had an interest rate range of 2.99% to 4.79% and w ere all d u e to m atu re w ithin 18 d ays.
The p ar valu es of these bills ran ge from $1.0 m illion to $20.0 m illion.

As requ ired by th e Strengthen Am eriCorp s Program Act, beginn ing in fiscal 2003, the
Corp oration has set asid e in reserve a p ortion of th e fu nd s in the Tru st for u se in the event that
its estim ates u sed to calcu late obligational am ou n ts for ed u cation aw ard s p rove to be too low .
As of Sep tem ber 30, 2007, $46.7 m illion of th e Corp oration ’s investm ent accou n t has been set
asid e for th is reserve.
NOTE 3 – TRUST INVESTMENTS AND RELATED RECEIVABLES – CONTINUED


Investments held at September 30 mature according to the following schedule:


                             Maturation of Securities Held as of September 30
                                          (dollars in thousands)
                                                            2007                                2006
                                                   Amortized                           Amortized
Held-to-Maturity Securities                          Cost        Fair Value              Cost        Fair Value
Due in 1 year or less                          $      245,945     $   246,090      $      189,747   $   188,294
Due after 1 year up to 5 years                        215,897         218,060             253,855       250,912
Total                                          $      461,842     $   464,150      $      443,602   $   439,206




NOTE 4 – ACCOUNTS RECEIVABLE, NET


                  Accounts Receivable as of September 30
                          (dollars in thousands)
                                                     2007             2006
Accounts receivable                            $        3,726     $     3,113
Less: allowance for loss on receivables                     479         1,058
Accounts Receivable, Net                       $        3,247     $     2,055




NOTE 5 – PROPERTY AND EQUIPMENT, NET


       General Property and Equipment as of September 30, 2007
                        (dollars in thousands)
                                                             Less:
                             Service Life               Accumulated     Net Book
       Major Class              (Years)         Cost     Depreciation    Value
Equipment                        3 - 10     $    2,917 $        1,326 $      1,591
Capital leases                      3-5                     416              208              208
ADP software                          2                 6,274           5,966                 308

Total                                          $        9,607 $         7,500 $             2,107
NOTE 5 – PROPERTY AND EQUIPMENT, NET – CONTINUED


            General Property and Equipment as of September 30, 2006
                              (dollars in thousands)
                                                        Less:
                  Service Life                       Accumulated
   Major Class       (Years)             Cost        Depreciation Net Book Value
Equipment             3 - 10     $          3,320 $          1,381 $       1,939
Capital leases            3-5                    435                140                295
ADP software                2                  6,274              5,350                924

Total                                 $       10,029   $          6,871   $         3,158


NO TE 6 – SERVICE AW ARD LIABILITY – NATIO NAL SERVICE TRUST
                                                  12203
In d ivid u als w ho su ccessfu lly com p lete term                 10661
                                                    s of service in Am  eriCorp s p rogram s earn
ed u cation aw ard s, w hich can be u sed to m ake p aym en ts on qu alified stu d ent loan s or for
ed u cational exp enses at qu alified ed u cational institu tion s. Th e aw ard s, w h ich are available for
u se for a p eriod of u p to seven years after the ben efit has been earned , are p aid from the
N ation al Service Tru st. Th e Tru st also p ays forbearance in terest on qu alified stu d ent loan s
d u rin g th e p eriod m em bers p erform com m u nity service, as w ell as aw ard s u n d er the
Presid ent’s Freed om Scholarsh  8477ip Program . 4687
                                                   Th e aw ard liability
                                                                     8191com p onen ts related to ed u cation
aw ard s and in terest forbearance have been ad ju sted , based on h istorical exp erien ce, to reflect
th e fact that som e eligible p articip an ts m ay n ot u se these benefits. The Service Aw ard Liability
w as com p osed of the follow in g as of Sep tem ber 30:


                                 Service Award Liability as of September 30
                                           (dollars in thousands)
                                                                                2007              2006
Education awards                                                          $     1,179,887    $     1,038,985
Interest forbearance                                                               37,264             32,478
President's Freedom Scholarship Program                                            22,527             20,900
Total estimated service award liability                                         1,239,678          1,092,363
Less: cumulative awards paid                                                      959,081            825,420
Total                                                                     $       280,597    $       266,943


The n et Service Aw ard Liability as of Sep tem ber 30, 2007, increased by ap p roxim ately $14
m illion from the n et service aw ard liability as of Sep tem ber 30, 2006. This ch ange w as largely
d u e to new m em ber en rollm en ts and an increase in the n u m ber of m em bers still serving d u ring
th e year. Past Corp oration ap p rop riation s m ad e am ou nts from the Tru st available for $1,000
scholarsh ip s for high school stu d en ts kn ow n as Presid ential Freed om Sch olarship s. To fu nd
each sch olarship , a local com m u n ity or corp orate sou rce m atched th e $500 p ortion of th e
scholarsh ip p rovid ed by th e Corp oration. The p rogram w as d iscontin u ed in fiscal 2007;
h ow ever, becau se stu d en ts h ave u p to seven years to u se the sch olarship , som e p aym ents w ill
con tin u e to be m ad e over the n ext several years.
NO TE 7 – CAPITAL AND O PERATING LEASES
A. Capital Leases
The Corp oration has entered in to lease agreem ents for cop y m achines. These leases vary from 3
to 4 year term s and are d eem ed to be cap ital leases. The costs of the cop iers have been record ed
as p rop erty and equ ip m ent (also see N ote 5). Th e follow ing is a sched u le by year of th e fu tu re
m inim u m p aym ents u nd er these leases:
                295086


               Capital Lease Libility as of September 30
                        (dollars in thousands)
                                                              2007                2006
Fiscal Year 2007                                                      -              109
Fiscal Year 2008                                                 109                 109
Fiscal Year 2009                                                 109                 109
Fiscal Year 2010                                                  72                  73
Fiscal Year 2011                                                   -                   -
Total future minimum lease payments                              290                 400
Less: amounts representing interest                               40                  73
Total                                                     $      250          $      327


B. Operating Leases
The Corp oration leases office sp ace th rou gh th e Gen eral Services Ad m in istration (GSA). GSA
charges the Corp oration a Stand ard Level Users Charge that ap p roxim ates com m ercial ren tal
rates for sim ilar p rop erties. N CCC also leases hou sin g facilities for its cam p u ses. Ad d ition ally,
th e Corp oration leases m otor veh icles on an ann u al basis throu gh GSA u n d er an In teragen cy
Fleet Man agem en t Service agreem ent for the N ational Civilian Com m u n ity Corp s.
Com m itm en ts of th e Corp oration for fu tu re ren tal p aym en ts u nd er op eratin g leases at
Sep tem ber 30 are as follow s:



                          Estimated Operating Lease Commitments as of September 30
                                            (dollars in thousands)
                                    2007                                      2006
  Fiscal     Facilities                                                       Facilities
   Year        Space          Vehicles       Other            Total               Space        Vehicles       Other        Total
   2007                   -              -            -                   -         7,828           964           166        8,958
   2008            8,155           581           124            8,860               8,073           998           173        9,244
   2009            8,395           598               95         9,088               8,328          1,033          180        9,541
   2010            8,642           615               89         9,346               8,592          1,069          188        9,849
   2011            8,896           633               92         9,621               8,864          1,107          198       10,169
   2012            9,158           652               96         9,906                      -              -           -            -

Total         $ 43,246        $   3,079      $   496      $ 46,821            $ 41,685         $   5,171      $   905     $ 47,761
NO TE 8 – ACTUARIAL FECA LIABILITY
The Corp oration’s actu arial liability for fu tu re w orkers’ com p ensation benefits u nd er FECA
w as $11.888 m illion and $12.537 m illion as of Sep tem ber 30, 2007 and 2006, resp ectively. The
am ou nt inclu d es the exp ected liability for d eath, d isability, m ed ical, and m iscellaneou s costs
for ap p roved com p ensation cases. The actu arial liability is d eterm ined u sing a m ethod that
u tilizes historical benefit p aym ent p atterns related to a sp ecific incu rred p eriod to p red ict the
u ltim ate p aym ents related to that p eriod295086
                                              . Consistent w ith p ast p ractice, these p rojected annu al
benefit p aym ents have been d iscou nted to p resent valu e 7821                49165
                                                                  u sing the Office of Managem ent and
Bu d get’s econom ic assu m p tions for 10-year    Treasu ry notes and bond s.
                                              127984




NO TE 9 – NET PO SITIO N
                                                              12203           10661
N et p osition consists of u nexp end ed ap p rop riations and cu m u lative resu lts of operations.
Com p onent balances are separately m aintained for the Gift Fu nd , Tru st Fu nd and
Ap p rop riated Fu nd s.



                           Net Position by Fund Balance Components
                                    As of September 30, 2007

                                       (dollars in thousands)
                                                                            Appropriated
                                           Gift Fund       Trust Fund           Fund           Total
Unexpended appropriations              $               -   $            -   $   828,597    $   828,597
Cumulative results of operations                 570            184,949         (10,170)       175,349
Total Net Position                     $         570       $    184,949     $   818,427    $ 1,003,946




                           Net Position by Fund Balance Components
                                    As of September 30, 2006

                                       (dollars in thousands)
                                                                            Appropriated
                                           Gift Fund       Trust Fund           Fund           Total
Total unexpended appropriations        $               -   $            -   $   872,133    $   872,133
Cumulative results of operations                 743            194,980         (15,919)       179,804
Total Net Position                     $         743       $    194,980     $   856,214    $ 1,051,937
NO TE 10 – APPRO PRIATIO NS RECEIVED BY THE TRUST FUND
For fiscal year 2007, the N ational Service Tru st received $117.7 m illion u nd er the Revised
Con tin u in g Ap p rop riations Resolu tion , 2007 (Pu blic Law 110-5). For fiscal year 2006, the
Tru st received $138.6 m illion ($140 m illion less the on e p ercent govern m ent-w id e rescission
in clu d ed in th e Dep artm ent of Defense Ap p rop riation s Act, 2006 (P.L. 109-148)) u nd er the
Dep artm ents of Labor, H ealth and H u m an Services, and Ed u cation, an d Related Agencies
Ap p rop riation s Act, 2006 (P.L. 109-149).

The Acts also au thorized th e Corp oration to tran sfer ad d itional am ou n ts from su btitle C
p rogram fu n d s to the Tru st if “necessary to su p p ort th e activities of n ational service
p articip ants.” The Corp oration transferred $16.3 m illion to th e Tru st u n d er th is p rovision
in fiscal 2006. N o fu nd s w ere transferred in fiscal 2007. Th e Tru st p ortion of the 2006
N CSA rescission w as tran sferred back to N CSA, red u cing th e net am ou n t of ap p rop riations
received by the Tru st d u rin g th e fiscal year.


NO TE 11 – EXPENSES
Usin g an ap p rop riate cost accou n tin g m eth od ology, th e Corp oration 's exp enses have been
allocated am ong its m ajor p rogram s, at the su b-p rogram level. Costs for each su b-p rogram
are rep orted on sep arately:

AmeriCorps inclu d es th e State, N ational, Tribes, and Territories (State/N ation al); N ational
Civilian Community Corps (N CCC); and V olunteers In Service To A merica (VISTA) p rogram s.
The State/N ational su b-p rogram inclu d es gran t exp enses, as w ell as d irect an d allocated
p erson nel an d ad m in istrative costs inclu d ing Am eriCorp s recru itm en t an d Tru st
op eration s. Th e N CCC su b-p rogram inclu d es d irect and allocated p ersonn el and
ad m inistrative costs in clu d in g Am eriCorp s recru itm ent and Tru st op eration s. The VISTA
su b-p rogram in clu d es grant exp en ses, as w ell as d irect and allocated p ersonn el and
ad m inistrative costs in clu d in g Am eriCorp s recru itm ent and Tru st op eration s.

The N ational Senior Service Corps (N SSC) inclu d es the Foster Grandparent Program (FGP);
Senior Companion Program (SCP); and th e Retired and Senior V olunteer Program (RSVP). Th e
N SSC resp on sibility segm ent inclu d es gran t exp enses, as w ell as d irect an d allocated
p erson nel an d ad m inistrative costs for RSVP, FGP, and SCP.

Learn and Serve America in clu d es grant exp en ses, as w ell as d irect and allocated p ersonnel
an d ad m inistrative costs, for the Learn an d Serve Am erica Program , the Presid en t’s Stu d ent
Service Ch allen ge, an d N ational Service Lead er Schools. Th e Presid en t’s Freed om
Sch olarship s are in clu d ed in the N ational Service Aw ard exp en se com p on ent.

Other Program Costs

N ational Service A ward Expense – the N ational Service Aw ard exp ense com p on ent consists of
th e Corp oration ’s estim ated exp ense for ed u cation aw ard s based on the increase in its
service aw ard liability d u ring th e year, interest forbearan ce costs on qu alified stu d ent loan s
d u ring th e p eriod m em bers p erform com m u n ity service, as w ell as d isbu rsem ents for the
Presid ent’s Freed om Sch olarship Program (see N ote 12). N o in d irect costs h ave been
allocated to the N ational Service Aw ard exp en se com pon ent.
Pass-through Grants – the Corp oration has reim bu rsable agreem ents w ith state agencies
w h ereby the Corp oration aw ard s and ad m in isters gran ts to a list of gran tees selected and
NO TE 11 – EXPENSES – CO NTINUED
fu nd ed by the State. In ad d ition, p rior to fiscal 2007 the Corp oration ’s an nu al
ap p rop riation in clu d ed Congression ally-earm arked gran ts. N o in d irect costs h ave been
allocated to these p ass-th rou gh gran ts.

The Office of Insp ector General (OIG) receives a sep arate ap p rop riation . N o ind irect costs
h ave been allocated to the OIG. The largest com p onen t of total exp ense is gran t fu n d s
exp end ed .



                 Components of Grant Funds Expended for the years ended September 30
                                              (dollars in thousands)
                                                                       2007                       2006
Domestic Volunteer Service Act Programs                                    $ 249,634                  $ 308,007
National and Community Service Act Programs                                   347,085                    240,753
Pass-through Grants                                                             2,781                      9,504
Total Grant Funds Expended                                                 $ 599,500                  $ 558,264



                Expenses by Major Responsibility Segment for the years ended September 30
                                              (dollars in thousands)
                                                                       2007                       2006
AmeriCorps
  State, National, Tribes & Territories (State/National)     $ 461,509                  $ 399,882
  National Civilian Community Corps (NCCC)                        37,188                     37,162
  Volunteers In Service To America (VISTA)                       123,607                    116,807
     Subtotal                                                              $ 622,304                  $ 553,851
National Senior Service Corps
  Retired and Senior Volunteer Program (RSVP)                     66,286                     65,480
  Foster Grandparent Program (FGP)                               123,293                    119,773
  Senior Companion Program (SCP)                             $    51,249                $    50,702
     Subtotal                                                                 240,828                    235,955
Learn and Serve America                                                        59,503                     51,799
Pass-through Grants                                                             2,781                      9,504
Office of Inspector General (OIG)                                               5,634                      7,778
Total Expenses                                                             $ 931,050                  $ 858,887
                                                                 Expenses by Type and Subprogram for the year ended September 30, 2007
                                                                                                 (dollars in thousands)
                                                                              AmeriCorps                                  National Senior Service Corps                            Pass-through
                            Type                             State/National       NCCC          VISTA              RSVP               FGP                 SCP      Learn & Serve       Grants             OIG           Total
Grant and Related Expense
Grant funds expended                                         $   295,095      $         -   $    27,268       $     60,933       $   114,075      $       47,358   $    51,990     $      2,781       $         -   $   599,500
VISTA & NCCC stipends & benefits                                       -           10,201        57,283                  -                 -                   -             -                -                 -        67,484
Service award expense                                            127,982            3,576        14,130                  -                 -                   -         1,627                -                 -       147,315
Total Grant and Related Expense                                  423,077           13,777        98,681             60,933           114,075              47,358        53,617            2,781                 -       814,299

Administrative Expense
Federal employee salaries & benefits                              22,459            9,823         9,949               2,962             5,567              2,303         3,667                    -        2,999         59,729
Travel & transportation                                            1,343            4,140         4,475                 161               289                123           180                    -          124         10,835
Rent, communications, & utilities                                  4,202            2,879           967                 510               954                396           405                    -          391         10,704
Program analysis & evaluation                                        853              775           775                 245               456                190           581                    -            -          3,875
Printing & reproduction                                               94              112           101                  11                19                  8             9                    -            1            355
Other services and expenses                                        8,477            4,687         8,191               1,299             1,623                744           913                    -        2,074         28,008
Supplies & materials                                                 307              983           349                  69               130                 53            48                    -           45          1,984
Depreciation, amortization & loss on disposition of assets           581               10            99                  80               150                 62            69                    -            -          1,051
Bad debt                                                             116                2            20                  16                30                 12            14                    -            -            210
Total Administrative Expense                                      38,432           23,411        24,926               5,353             9,218              3,891         5,886                    -        5,634        116,751
Total Expenses by Type                                       $   461,509      $    37,188   $   123,607       $     66,286       $   123,293      $       51,249   $    59,503     $      2,781       $    5,634    $   931,050



                                                                 Expenses by Type and Subprogram for the year ended September 30, 2006
                                                                                                 (dollars in thousands)
                                                                              AmeriCorps                                  National Senior Service Corps                            Pass-through
                            Type                             State/National       NCCC          VISTA              RSVP               FGP                 SCP      Learn & Serve       Grants             OIG           Total
Grant and Related Expense
Grant funds expended                                         $   261,409      $         -   $    22,536       $     60,159       $   111,190      $       46,868   $    46,598     $      9,504       $         -   $   558,264
VISTA & NCCC stipends & benefits                                       -            7,803        60,904                  -                 -                   -             -                -                 -        68,707
Service award expense                                            103,924            4,075        12,340                  -                 -                   -           (99)               -                 -       120,240
Total Grant and Related Expense                                  365,333           11,878        95,780             60,159           111,190              46,868        46,499            9,504                 -       747,211

Administrative Expense
Federal employee salaries & benefits                              21,581           10,781         7,605               3,261             6,019              2,544         3,718                    -        3,011         58,520
Travel & transportation                                              998            4,003         4,319                 170               287                123           146                    -          127         10,173
Rent, communications, & utilities                                  3,114            2,564           818                 445               820                346           303                    -          332          8,742
Program analysis & evaluation                                        771              695           698                 223               407                172           521                    -            -          3,487
Printing & reproduction                                               79               89            95                   9                17                  7            12                    -            4            312
Other services and expenses                                        7,020            6,195         7,060               1,080               798                542           494                    -        4,146         27,335
Supplies & materials                                                 364              934           362                  86               145                 62            69                    -          156          2,178
Depreciation, amortization & loss on disposition of assets           606               22            66                  45                85                 36            35                    -            2            897
Bad debt                                                              16                1             4                   2                 5                  2             2                    -            -             32
Total Administrative Expense                                      34,549           25,284        21,027               5,321             8,583              3,834         5,300                    -        7,778        111,676
Total Expenses by Type                                       $   399,882      $    37,162   $   116,807       $     65,480       $   119,773      $       50,702   $    51,799     $      9,504       $    7,778    $   858,887
NO TE 12 – NATIO NAL SERVICE AW ARD EXPENSE
Mem bers p articip ating in the Tru st p rogram s are eligible to earn a service aw ard to p ay for
qu alified ed u cation exp enses. The Tru st also p ays interest forbearance costs on qu alified
stu d ent loans d u rin g the p eriod m em bers p erform com m u nity service. The Corp oration
estim ates the exp en se for national service aw ard s based on th e increase in its cu m u lative service
aw ard liability d u ring the year (see N ote 6). The total service aw ard liability as of Sep tem ber 30,
2007 and 2006, resp ectively, has been ad ju sted to reflect the fact that earned aw ard s are not
alw ays u sed .


                    National Service Award Expense for the years ended September 30
                                               (dollars in thousands)
                                                                              2007                   2006
 Estimated education awards                                              $      140,902         $      117,899
 Estimated interest forbearance                                                   4,786                  2,440
 President’s Freedom Scholarship Program                                          1,627                      (99)
 National Service Award Expense                                          $      147,315         $      120,240




NOTE 13 – INCREASE/(DECREASE) IN UNEXPENDED APPROPRIATIONS, NET


                Increase/(Decrease) in Unexpended Appropriations, Net as of September 30
                                               (dollars in thousands)
                                                                              2007                   2006
 Increases:
 Appropriations Received, Net of Trust                                   $      884,547         $      919,049


 Decreases:
 Appropriated Capital Used                                                     (779,456)              (731,807)
 Appropriations Transferred to Trust Fund                                      (117,720)              (154,868)
 Rescinded Appropriations                                                             -                 (9,090)
 Canceled Appropriations                                                        (30,907)               (15,551)
 Total Decreases                                                               (928,083)              (911,316)
 Increase/(Decrease) in Unexpended Appropriations, Net                   $      (43,536)        $        7,733
NOTE 14 – CONTINGENCIES
The Corporation is a party to various routine administrative proceedings, legal actions, and
claims brought by or against it, including threatened or pending litigation involving labor
relations claims, some of which may ultimately result in settlements or decisions against the
Corporation. In the opinion of the Corporation’s management and legal counsel, there are no
proceedings, actions, or claims outstanding or threatened that would materially impact the
financial statements of the Corporation.
Certain legal matters to which the Corporation is a party may be administered and, in some
instances, litigated and paid by other Federal agencies. Generally, amounts paid in excess of
$2.5 thousand for Federal Tort Claims Act settlements or awards pertaining to these litigations
are funded from a special appropriation called the Treasury Judgment Fund (TJF). Although
the ultimate disposition of any potential TJF proceedings cannot be determined, management
does not expect that any liability or expense that might ensue would be material to the
Corporation’s financial statements.


NOTE 15 - UNDELIVERED ORDERS AT FISCAL YEAR-END
The Corporation’s undelivered orders at September 30, 2007 and 2006 were $837,042 thousand
and $879,672 thousand, respectively.

NOTE 16 – APPORTIONMENT CATEGORIES OF INCURRED OBLIGATIONS
An apportionment is a distribution by OMB of amounts available for obligation. OMB
apportions Corporation funds on a quarterly basis. For fiscal year 2006 the Corporation was
not required to break out its obligations between direct and reimbursable on the SF 133.
Obligations incurred during fiscals 2007 and 2006 were:


                                 Consolidated Obligations Incurred
                                         (dollars in thousands)
                   Fiscal Year                                    Direct          Reimbursable           Total


Fiscal 2007                                              $        1,059,318   $          4,511       $   1,063,829


Fiscal 2006                                              $        1,148,622   $                  -   $   1,148,622
NOTE 17 – RESTATEMENT OF NET OUTLAYS ON THE STATEMENT OF BUDGETARY
          RESOURCES
In April 2006, the Treasury revised the methodology for computing distributed offsetting
receipts on the Statement of Budgetary Resources (SBR) and issued guidance to agencies to
implement the change in September 2006 (“Guide to Reporting Distributed Offsetting Receipts on
the Statement of Budgetary Resources,” dated September 28, 2006). Applying this new
methodology, the Corporation collected distributed offsetting receipts of $155,064 thousand
during fiscal 2006, but reported distributed offsetting receipts of $25,228 thousand on its SBR
for the year ended September 30, 2006. As a consequence, the Corporation understated its
offsetting receipts and overstated its Net Outlays by $129,836 thousand.
Accordingly, the Corporation has restated the SBR for the year ended September 30, 2006, to
increase Distributed Offsetting Receipts and decrease Net Outlays by $129,836 thousand.
Distributed Offsetting Receipts are reported on the SBR solely for the purpose of arriving at
Net Outlays and correlating with the President's Budget. Thus, Distributed Offsetting Receipts
(and the restatement thereof) has no effect on the Balance Sheet, Statement of Operations and
Changes in Net Position, and Statement of Cash Flows, or require an adjustment to any
account balance. The Corporation has incorporated the Treasury guidance into its financial
statement preparation procedures for fiscal 2007. The total effect of the restatement on the
Statement of Budgetary Resources for the year ended September 30, 2006, is as follows:

                                                                        (dollars in thousands)
Fiscal 2006 Outlays                                     As Published          Adjustment             As Restated
Gross Outlays                                       $      1,007,987      $                -     $     1,007,987
Offsetting collections                                       (10,675)                      -              (10,675)
Distributed offsetting receipts                              (25,228)            (129,836)              (155,064)
Net Outlays                                         $        972,084      $      (129,836) $             842,248
                 Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General
Corporation for National and Community Service

We have audited the financial statements of the Corporation for National and Community
Service (“the Corporation”) as of and for the year ended September 30, 2007, and have issued
our report thereon dated November 8, 2007. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and, Office of Management and Budget (OMB) Bulletin 07-04,
Audit Requirements for Federal Financial Statements.

The management of the Corporation is responsible for complying with laws and regulations
applicable to the Corporation. As part of obtaining reasonable assurance about whether the
Corporation’s financial statements are free of material misstatements, we performed tests of the
Corporation’s compliance with certain provisions of laws and regulations, non-compliance with
which could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin 07-04. We limited
our tests of compliance to those provisions and we did not test compliance with all laws and
regulations applicable to the Corporation.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and, accordingly, we do not express such an opinion.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph disclosed no instances of reportable noncompliance or other matters that are required
to be reported under U.S. generally accepted government auditing standards or OMB Bulletin
07-04.

                             ********************************

This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, GAO, OMB and Congress, and is not intended to be and should
not be used by anyone other than these specified parties.

a                                                 1
Calverton, Maryland
November 8, 2007


11710 Beltsville Drive
Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050                                   1
fax: 301-931-1710
www.cliftoncpa.com                 Offices in 17 states and Washington, DC
                            Independent Auditor’s Report on Internal Control


To the Inspector General of the
 Corporation for National and Community Service


We have audited the financial statements of the Corporation for National and Community
Service (Corporation) as of and for the year ended September 30, 2007, and have issued our
report thereon dated November 8, 2007. We conducted our audit in accordance with the auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and, Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements.

In planning and performing our audit, we considered the Corporation’s internal control over
financial reporting by obtaining an understanding of relevant internal controls, determined
whether these internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in OMB Bulletin No. 07-04. We did
not test all internal controls relevant to operating objectives, as broadly defined by the Federal
Managers’ Financial Integrity Act (FMFIA) (31 U.S.C. 3512), such as, those controls relevant to
ensuring efficient operations. Accordingly, we do not express an opinion on the effectiveness of
the Corporation’s internal control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity's ability to initiate, authorize, record,
process, or reliably report financial data in accordance with generally accepted accounting
principles such that, there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control. A material weakness is a significant deficiency, or combination of
significant deficiencies, that results in a more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected by the entity’s internal
control.




11710 Beltsville Drive
Suite 300
Calverton, Maryland 20705
tel: 301-931-2050
fax: 301-931-1710                                       1
www.cliftoncpa.com                      Offices in 17 states and Washington, DC
Our consideration of internal control over financial reporting was for the limited purpose
described in the second paragraph and would not necessarily identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses. We did not identify any
deficiencies in internal control that we consider to be significant deficiencies or material
weaknesses, as defined above.


                               *****************************

STATUS OF PRIOR YEAR COMMENTS

As required by Government Auditing Standards we have provided the status of prior-year
reportable conditions in Exhibit 1.


                               *****************************


In addition, we noted other matters involving internal control and its operation that we will report
to the Corporation management in a separate management letter.

This report is intended solely for the information and use of the management of the Corporation,
the Office of Inspector General, OMB, the Government Accountability Office and Congress, and
is not intended to be and should not be used by anyone other than these specified parties.


a                                              1
Calverton, Maryland
November 8, 2007




                                                 2
                                    EXHIBIT 1
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS
                                 September 30, 2007

FY 2006 Findings

                                         Report                        Type              Current Status
Financial Statement Quality Control
  and Assurance                       Internal Control       2006 Reportable Condition       Closed
                                                             2006 Compliance with OMB
                                                               Circular A-11 Section
Cost-Share Agreements                  Compliance              20.4(b)                       Closed




                                                         3
                         APPENDIX
____________________________________________________________

          CORPORATION RESPONSE TO REPORT
November 9, 2007

The Honorable Gerald Walpin
Inspector General
Corporation for National and Community Service
Suite 830
Washington, D.C. 20525

Dear Mr. Walpin:

        Thank you for the opportunity to comment on the draft report on the audit of the
Corporation’s fiscal 2007 financial statements. The Corporation received an unqualified opinion
for the eighth year in a row and, for the first time ever, had no material weakness or significant
deficiencies in its operations. This is a significant milestone in which we all take pride. These
results reflect the Corporation’s commitment to sound financial management and the hard work
by staff over the past year to improve operations.

        While pleased with these results, I recognize this is an on-going process. The
Corporation is committed to making continuous improvement in its programs and operations.
Examples of this include the consolidation of five service centers into one during fiscal 2007 and
efforts to transition to the government-wide lines of business for grants and human capital over
the next 18 months to further streamline operations and better serve grantees.

        Finally, I would like to express my appreciation for the efforts made by your staff and the
staff of Clifton Gunderson LLP. The completion of the audit under the tight timeframes
mandated for federal financial statements could not have been achieved without the close
cooperation of both staffs.

                                             Sincerely,



                                             David Eisner
                                             Chief Executive Officer
